:CLOCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-283.1
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-639
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as Governor
of Nevada; AARON FORD, in his official capacity as
Attorney General of Nevada; FRANK HUNEWILL,
in his official capacity as Sheriff of Lyon County,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONSE TO PETITION
FOR A WRIT OF CERTIORARI BEFORE JUDGMENT in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2537 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of December, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska

0,1/taa)-4.

RENEE J. GOSS
My Comm. Exp. September 5, 2023

Notary Public

Affiant

40392

